Capital Case
Case No.19-1106

In the

Supreme Court of the United States
TOMMY SHARP, Interim Warden
Oklahoma State Penitentiary,
Petitioner,
v.
RODERICK L. SMITH
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

CERTIFICATE OF SERVICE
Respondent’s Letter Requesting Extension of Time to Respond to
Petitioner’s Petition for Writ of Certiorari

I, Emma V. Rolls, a member of the Bar of this Court, pursuant to Rule 29 of the
Rules of the Supreme Court of the United States, hereby certify that on this 18th day of
March, 2020, I served a copy of Respondent’s letter to the clerk of the Supreme Court
requesting an additional forty-five (45) days in which to respond to Petitioner’s Petition for
Writ of Certiorari via electronic email service to counsel for Petitioner:
Caroline Elizabeth Jane Hunt, Assistant Attorney General
313 N.E. 21st Street, Oklahoma City, OK 73105
caroline.hunt@oag.ok.gov; fhc.docket@oag.ok.gov
Counsel for Petitioner
s/ Emma V. Rolls
Emma V. Rolls, OBA # 18820
Assistant Federal Public Defender
Counsel of Record for Respondent,
Roderick L. Smith

